/ United States Government                                                  Department of Energy

  Memorandum
  DATE:      August 8, 2005                                    Audit Report Number OAS-L-05-12

  REPLY TO
  ATTN OF:   IG-32 (A05AL036)

  SUBJECT:   Audit Report on "Limited Life Component Exchange Program"

  TO:        Deputy Administrator for Defense Programs, National Nuclear Security Administration


             INTRODUCTION AND OBJECTIVE

             The goal of the Limited Life Component Exchange (LLCE) Program is to schedule, build
             and deliver limited life components such as tritium reservoirs and neutron generators. In
             order for weapon systems to remain operational, these components must be periodically
             replaced. The objective of this audit was to determine whether the National Nuclear
             Security Administration's (NNSA) limited life component exchange program has
             sufficient capacity to provide all components needed to meet stockpile requirements.

             CONCLUSIONS AND OBSERVATIONS

             We found that NNSA appears to have sufficient capacity to provide all components needed
             to meet stockpile requirements. Our comparison of NNSA's requirements with actual
             shipments over a three-year period showed that sufficient capacity exists for neutron
             generators and tritium reservoirs. However, we observed some issues, which could impact
             NNSA's ability to meet future requirements.

             NNSA relies solely on the LLCE Program Manager's comprehensive knowledge for
             determining LLCE requirements. The Program Manager is the only person within the
             LLCE Program who has the knowledge and experience to formulate Volume In of the
             Master Nuclear Schedule, which authorizes and schedules the shipment of limited life
             components. NNSA recognized this weakness in 1997 and hired a successor to the
             Program Manager. However, the successor has not been fully involved due to other
             priorities related to the Weapons Information System. NNSA has also not developed a
             formal succession planning process to ensure this expert knowledge base is successfully
             transferred to the Program Manager's successor.

             Furthermore, NNSA has not established formal procedures and methodologies for
             modifying component production and inventory levels within the LLCE program. The
             Program Manager, who will be eligible to retire within three years, uses informal
             procedures and methodologies for modifying component requirements. We examined
             component requirement records and found that the rationale for subsequent changes to
             requirements was not always evident. For example, hand written notes and copies of
             emails did not provide a formal basis for modifying levels. In addition, the Program
             Manager used verbal input from site managers and Department of Defense officials to
             develop "fudge factors" that modify component requirement levels.
The LLCE Program could be at risk of meeting its goals to schedule, build and deliver
limited life components as needed. Therefore, we suggest that NNSA implement a formal
succession plan for transferring knowledge to successors and ensure modifications to
requirements are well documented. We discussed our concern and suggestion with the LLCE
Program Manager during the course of the audit.

SCOPE AND METHODOLOGY

The audit was performed from December 2004 to May 2005, at NNSA, Albuquerque;
Sandia National Laboratories; and, the Kansas City Plant. The scope of the audit was
limited to Fiscal Years (FY) 2002 to 2004.

To accomplish the audit objective, we:

    *   Reviewed the limited life component shipping requirements for FYs 2002 to
        2004.

    *   Reviewed and compared shipping requirements based on the Volume II
        document to actual deliverables by Sandia National Laboratories and the Kansas
        City Plant, covering FY's 2002 to 2004.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective. Because
our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We relied on information
processed on automated data processing equipment to accomplish our audit objective,
and therefore we verified the validity of the automated data processing systems. Finally,
we reviewed the implementation of the Government Performance Results Act of 1993, as
it related to the LLCE program.

Since no recommendations are being made in this Letter Report, a formal response is not
required. We appreciate the cooperation of your staff during the audit.




                                 Ge ge . Collard
                                 Assistant Inspector General
                                  for Performance Audits
                                 Office of the Inspector General

cc: Director, Policy and Internal Controls Management, NA-66
    Team Leader, Audit Liaison Team, ME-100




                                          2
